                      0


 STATE CERTIFICATION OF UNDERGROUND STORAGE TANKS




Report No. 98-113                          April 15, 1998




              Office of the Inspector General
                  Department of Defense
Additional Information and Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD Home Page at: WWW.DODIG.OSD.MIL.

Suggestions for Audits

To suggest ideas for or to request future audits, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support
Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 6048932. Ideas
and requests can also be mailed to:

                   OAIG-AUD (A’ITN: APTS Audit Suggestions)
                   Inspector General, Department of Defense
                   400 Army Navy Drive (Room 801)
                   Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to
Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
is fully protected.




Acronyms

RCRA                  Resource Conservation and Recovery Act
UST                   Underground Storage Tank
                              INSPECTORGENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY OflIVE
                             ARLINGTON, VIRGINIA 22202




                                                                          April 15, 1998




MEMORANDUM FOR DEPUTY UNDER SECRETARY OF DEFENSE
               (ENVIRONMENTALSECURJTY)
SUBJECT: Audit Report on State Certification of Underground Storage Tanks
         (Report No. 98-113)

        We are providing this report for your review and comment. This report is one
in a series about DODmanagement of underground storage tanks.
        DOD Directive 7650.3 requires that all recommendations and potential monetary
benefits be resolved promptly. Because the Deputy Under Secretary of Defense
(Environmental Security) did not comment on a draft of this report, we request that the
Deputy Under Secretary of Defense (Environmental Security) provide comments on the
f’lnalreport by May 15, 1998.
        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Joseph P. Doyle, Audit Program Director, at
(703) 604-9348 (DSN 664-9348) or Ms. Addie M. Beima, Audit Project Manager, at
(703) 604-9231 (DSN 664-9231). See Appendix F for the report distribution. The
audit team members are listed inside the back cover.



                                        Robert Jy Lieberman
                                      Assistant Inspector General
                                             for Auditing
                         Office of the Inspector General, DOD
Report No. 98-113                                                         April l&l998
   (Project No. 6CK-5051.04)

              State Certification of Underground Storage Tanks

                                Executive Summary

Introduction.  This audit was part of the overall audit of “DOD Management of
Underground Storage Tanks,” (Project No. 6CK-5051). The overall audit was jointly
conducted by the Inspector General, DOD, and the Army, Navy, and Air Force audit
agencies. The audit was performed in response to a Senate Armed Services Committee
inquiry about whether state environmental regulatory agencies would be able to certify
that DOD underground storage tanks were compliant with the Resource Conservation
and Recovery Act, Subtitle I, after December 22, 1998.

Audit Objective-s. The audit objectives were to identify each state’s underground
storage tank compliance policies and to determine the extent to which DOD was
meeting those regulatory requirements. We also determined whether DOD and state
environmental regulatory agencies were reconciling their respective storage tank
inventories.

Audit Results. Significant variances existed between state- and DOD-generated
underground storage tank inventories. Operations could be disrupted at some DOD
installations after December 22, 1998, if state regulatory agencies do not obtain
accurate data with which to assess storage tank compliance with the Resource
Conservation and Recovery Act, Subtitle I. See Part I for a discussion of the audit
results.

Summary of Recommendations. We recommend that the Deputy Under Secretary of
Defense (Environmental Security) require DOD underground storage tank managers to
reconcile installation inventories with state-generated inventories, report discrepancies
to state environmental regulatory officials, work with state environmental officials to
reconcile discrepancies, and to report reconciliations to the Assistant Deputy Under
Secretary of Defense (Environmental Quality).

Management Comments. The Deputy Under Secretary of Defense (Environmental
Security) did not respond to a draft of this report that was issued on January 23, 1998.
Therefore, we request that the Deputy Under Secretary of Defense (Environmental
Security) provide comments by May 15, 1998.
Table of Contents
Executive Summary                                            i

Part I - Audit Results
      Audit Background
      Audit Objectives
      UST Inventory Reconciliation

Part II - Additional Information
      Appendix A. Audit Process
        scope
        Methodology
      Appendix B. Summary of Prior Coverage
      Appendix C. Other Matters of Interest
      Appendix D. State RCRA Implementation Survey Results
      Appendix E. Comparison of State and DOD Inventories
      Appendix F. Report Distribution
Part I - Audit Results
Audit Background
    This audit is part of an overall audit of “DOD Management of Underground
    Storage Tanks, * (Project No. 6CK-505 1). The overall audit was jointly
    conducted by the Inspector General, DOD and the Army, Navy, and Air Force
    audit agencies. This audit was performed in response to an inquiry from the
    Senate Armed Services Committee.

    A contractor working for the state of Georgia contacted staff of the Senate
    Armed Services Committee and alleged that some states, including Georgia,
    may not be able to certify that DOD-owned underground storage tanks (UST)
    are compliant with the Resource Conservation and Recovery Act, Subtitle I,
    (RCRA) after December 22,1998. The complainant maintained that DOD
    installations in Georgia used unqualified contractors to remove, upgrade, and
    replace USTs, and did not provide required documentation to enable State
    environmental offkials to certify that Federally-owned USTs comply with
    RCRA.

    Based on the complainant’s allegations, the Associate Majority and the Minority
    counsels for the Senate Armed Services Committee expressed concerns to the
    Inspector General, DOD, that some states might not be able to certify the
    compliance of DOD USTs with RCRA.

    Regulated USTs. RCRA defines a UST as any tank and connected piping that
    contains a regulated substance and has ten percent or more of its volume
    underground. Regulated substances include motor fuels, jet fuels, lubricants,
    petroleum solvents, and used oils. USTs storing heating oil for use on the
    premises where they are located are exempt from RCRA.

    UST Criteria. USTs owned and operated by DOD are subject to Federal, state,
    and local statutory and regulatory guidance. Federal UST statutory provisions
    are found in 42 United States Code 6991-6991h. Implementing regulations are
    located in Title 40 Code of Federal Regulations, Chapter 1, Part 280,
    “Technical Standards and Corrective Action Requirements for Owners and
    Operators of Underground Storage Tank”        We considered both statutory and
    regulatory requirements in our analysis of state certification of USTs.
    References to RCRA in this report include both the statute and regulation.
    USTs addressed in this report are also subject to state-specific environmental
    regulations.

            Federal Regulations. RCRA sets minimum standards for spill, overfill,
    and corrosion protection mechanisms to be included in new USTs as well as
    standards for upgrading, replacing, and closing existing USTs. Existing USTs
    (those installed before December 22, 1988) were required to have functional
    leak detection methods by December 1993. By December 22, 1998, existing
    USTs must be upgraded to have spill, overfill, and corrosion protection;
    otherwise the USTs must be either removed, closed in place, or replaced with a
    new UST. New USTs must be installed according to industry codes, and must
    have leak detection as well as spill, overfill, and corrosion protection.

                                        2
             State Regulations. According to RCRA, states may establish and
     administer their own UST programs. Also, states may impose stricter standards
     on UST owners and operators than the minimum standards provided in RCRA.
     However, those states may not broaden their standa& to include storage tanks
     that are expressly exempted by RCRA. Generally, state environmental
     regulatory agencies had adopted the Federal minimum UST compliance
     standards provided in RCRA (Appendix D). Most state environmental officials
     planned to physically inspect USTs to determine whether they were compliant
     with regulatory requirements. They also planned to issue permits authorizing
     compliant USTs to receive products and withhold product delivery to
     noncompliant USTs.

Audit Objectives
     The audit objectives were to identify each state’s UST compliance policies, and
     to determine the extent to which DOD was meeting those regulatory
     requirements. We also determined whether DOD and state environmental
     regulatory agencies were reconciling their respective storage tank inventories.
     See Appendix A for a discussion of the audit process, Appendix B for a
               of prior coverage, and Appendix C for a discussion of other matters of
     Ezzry .
            UST Inventory Reconciliation
            Significant variances existed between state- and DOD-generated
            underground storage tank inventories. The variances occurred because
            DOD UST managers and state environmental regulatory offkials were
            not reconciling their UST inventories with each other. As a result,
            operations could be disrupted at some DOD installations after
            December 22, 1998, if state regulatory agencies do not obtain accurate
            data with which to assess DOD storage tank compliance with the
            Resource Conservation and Recovery Act, Subtitle I.


Variances in UST Inventories
     The audit identified significant variances between state- and DOD-generated
     UST inventories. We compared DOD UST inventories that had been reconciled
     by the auditors during the overall audit of “DOD Management of Underground
     Storage Tanks” with state-generated inventories for those sites. Although state
     environmental regulatory offZa.ls and DOD UST managers felt they
     appropriately maintained their respective inventories, we identified 1,498
     discrepancies (1,011 + 487 = 1,498) in the data provided by 28 of 31 states.
     The total number of variances is the sum of the state and DOD variances. Three
     states could not or did not provide the requested data. State inventories
     contained 1,011 USTs that were not included in DOD-generated inventories, and
     DOD reported 487 USTs that were not included in state-generated inventories.
     In the aggregate, 28 states reported that the DOD installations had 524 (3,358 -
     2,834 = 524) more USTs than the installations reported (see totals in Appendix
     E). For example, the State of Georgia inventory included 238 more USTs at
     Fort Bemring than the installation reported. On the other hand, Fort Campbell,
     Kentucky, officials reported 75 USTs that were not included in state-generated
     inventories.


Reconciliation of UST Inventories
     Neither DOD UST managers nor state environmental regulatory agency officials
     were required to reconcile their UST inventories with each other. Also, DOD
     and state regulatory officials were not certain why variances existed between the
     inventories.

     DoD Reconciliation Requirements. DOD UST managers were not required to
     reconcile their UST inventories with state-generated inventories. According to
     the Assistant Deputy Under Secretary of Defense (Environmental Quality) it is
     their policy to comply with state environmental regulatory agency requirements.
     DOD is committed to the goal of ensuring that all of its USTs comply with state
     regulations by December 22, 1998. However, DOD policy and procedures
     governing USTs did not require managers to reconcile their inventories with
     state-generated inventories as a measure of how well they were meeting those
     goals. As a result, UST managers did not consider such reconciliations to be a

                                         4
                                                           UST Inventory Reconciliation


         priority. In fact, a review of UST records at DODinstallations indicated that
         little effort was being made to reconcile with state-generated UST inventories
         beyond the submission of required declaration and notification documentation
         on a tank-by-tank basis. This practice did not disclose discrepancies with state
         inventories that could present problems after December 1998. Given the
         approaching RCRA deadline, and the number of discrepancies identified
         between state- and DOD-generatedinventories, the Deputy Under Secretary of
         Defense (Environmental Security) should require DODUST managers to work
         with state officials to identify and reconcile discrepancies.
         State Reconciliation Efforts. State environmental regulatory agency'officials
         were not required to reconcile their UST inventories with DOD. However, most
         state officials contacted stated that they were satisfied that DOD was complying
         with regulatory requirements. Environmental officials in 27 of the 31 states
         contacted stated that they used DODdeclaration and notification documents to
         adjust their respective UST inventories. However, 28 of the 31 state-generated
         inventories did not agree with corresponding DOD-generatedinventories.
         Why Variances Exist. Without performing reconciliations, state regulatory
         officials and DODmanagers could not be certain why variances existed between
         their respective inventories. However, they believed that the variances were
         frequently the result of untimely documentation. For instance, state
         environmental ofAcials would not have received or recorded declaration and
         notification documentation to adjust their inventories to reflect DODstorage tank
         upgrade, removal, or installation actions. This was due in part to DODnot
         sending state environmental regulatory agencies notice of changes in the status
         of USTs until final site survey reports were completed, which was in keeping
         with RCRA guidance. In situations where clean-up or remediation action was
         involved, it could take months to prepare and submit final site reports. In other
         cases, the states had received the documents but had not recorded them for
         various reasons. Still, other states did not adjust their inventories until the end
         of the fiscal year or when they issued anuual permits authorizing product
         delivery to USTs. In a few states, the variances were caused by a lack of
         sufficient program emphasis. For example, 3 of the 31 states contacted either
         could not provide UST site information or did not maintain reliable UST
         databases to construct inventories. Neither state nor DODofficials were certain
         why the variances occurmd or that they would be corrected before the
         December 1998 deadline. DODreconciliation of UST inventories could
         encourage states to emphasize their programs in preparation for that deadline.


Disruption       of Services
         Gperations at some DODinstallations may be disrupted after December 22,
         1998. A comparison of state- and DOD-generatedUST inventories showed a
         total of 1,498 discrepancies that could result in operational disruptions at DOD
         installations. To encourage RCRA compliance, environmental regulatory
         officials in some states, including the state of Georgia, plan to withhold product
         delivery to noncompliant USTs, effectively shutting down operations after
         December 22, 1998. State regulatory officials also plan to firaeor penalize
UST Inventory Reconciliation


      anyone delivering products to a UST without a valid state permit. As a result,
      operations could be curtailed at the 487 USTs on DODinstallations that were
      not included in state inventories. Operations could be curtailed until the tanks
      are properly registered with the states and issued permits for product delivery.
      On the other hand, registration and permit issuance for compliant USTs could
      be delayed while state inspectors assess the status of the 1,011 USTs included in
      state inventories even though a review of DODdeclaration and notification
      documentation indicated they should have been removed. Given the significant
      number of discrepancies, and the time that could be required to correct them, it
      is in the best interest of DODto reconcile its UST inventories with state-
      generated inventories before the December 1998 deadline to minimize potential
      operational disruptions.




      There is a total of 1,498 discrepancies between 28 of 31 state-generated UST
      inventories and corresponding DOD-generatedinventories. Each of these
      discrepancies represents an opportunity for operations to be disrupted at a DOD
      installation if they arc not resolved before December 22, 1998. Therefore, it is
      in the Department’s best interest to resolve these discrepancies before
      December 1998 to minimize operational disruptions and demonstrate its
      commitment to comply with state and Federal RCRA requirements.


Recommendations For Corrective Actions
      We recommend that the Deputy Under Secretary of Defense
      (Environmental Security) issue policy to DoD underground storage tank
      managers requiring them to:

              1. Reconcile state- and DOD-generated underground storage tank
       inventories.

             2. Report discrepancies to state environmental regulatory agencies.

              3. Work with state environmental offhials to resolve identified
       discrepancies.

              4. Report reconciliations to the Assistant Deputy Under Secretary of
       Defense (Environmental Quality).




                                          6
                                                    UST Inventory Reconciliation




Management Comments
    The Deputy Under Secretary of Defense (Environmental Security) did not
    respond to a draft of this report. Therefore, we request that the Deputy Under
    Secretary of Defense (Environmental Security) provide comments by May 15,
    1998.
Part II - Additional Information
Appendix A. Audit Process

scope
    The audit focused on state- and DOD-generated UST inventories and RCRA
    programs in the 31 states that had the DOD installations reviewed during the
    overall audit of “DOD Management of Underground Storage Tanks.” We
    reviewed state RCRA standards, the methods states planned to use to assess
    DOD compliance with those standards, contractor certification requirements, and
    the suffkiency of UST documentation provided by DOD installations.


Methodology
    We interviewed environmental officials from 31 states to:

               identifjl the standards and methods state environmental regulatory
               agencies planned to use to assess DOD compliance with their respective
               RCRA programs,

               determine whether DOD UST managers or state environmental officials
               reconciled their respective UST inventories,

               determine whether state environmental regulatory officials were
               satisfied with the UST documentation the DOD installations were
               providing, and

               determine whether the state environmental regulatory agencies required
               UST contractors to be licensed or certified.

    We used inventory reconciliation data gathered by the Inspector General, DOD,
    and Army, Navy and Air Force audit agencies at 83 DOD installations during
    the overall audit of “DOD Management of Underground Storage Tanks,”
    (Project No. 6CK-5051) to determine whether state and DOD UST inventories
    were reconciled. These 83 DOD installations were located in the 31 states
    contacted during this audit. The Quantitative Methods Division statistically
    selected the 83 DOD installations from a universe of 222 DOD installations that
    reported more than 10 USTs to the Assistant Deputy Under Secretary of
    Defense (Enviromnental Quality) for the first half of FY 1996 (October 1995 -
    March 1996). We compared the standards the states planned to use to assess
    UST compliance with the minimum Federal standank provided in RCRA to
    determine if state standards were stricter or broader.




                                        10
                                                Appendix A. Audit Process


Audit Type, Dates and Standards. We performed this program audit from
June 1997 through December 1997 in accordance with auditing standards issued
by the Comptroller General of the United States, as implemented by the
Inspector General, DOD. We did not use computer-processed data for this
audit.

Contacts During the Audit. We visited the Associate Majority and Minority
Counsels from the Senate Armed Services Committee and contacted officials
from 31 state environmental regulatory agencies.




                                 11
Appendix B. Summary of Prior Coverage

Inspector General, DOD

     Inspector General, DoD, Report No. 98-021, “Management of
     Underground Storage Tanks at Defense hgistics Agency Centers,”
     November 13, 1997. The report states that the Defense Logistics Agency
     reported inaccurate UST data to the Assistant Deputy Under Secretary of
     Defense (Environmental Quality); did not implement title 50, United States
     Code, Section 98, “Strategic and Critical Materials Stock Piling Act,” or
     Defense Planning Guidance to establish plans and provide adequate funds to
     bring noncompliant USTs into compliance with RCRA; and did not maintain
     complete UST files. The Defense Logistics Agency could not provide reliable
     assurance that alI underground storage tanks would be compliant with RCRA by
     December 22,1998. The report recommends that the Director, DLA direct the
     DLA centers to establish management controls to ensure that current data was
     provided to the Assistant Deputy Under Secretary of Defense (Environmental
     Quality); fully document and support UST projects in future funding requests;
     ensure that information relative to USTs was shared with tank managers and
     properly documented in centralized UST files; and obtain all Environmental
     Protection Agency required documentation and maintain the documents in a
     separate file for each UST. DLA concurred with recommendations to establish
     management controls to ensure that UST information reported to the Assistant
     Deputy Under Secretary of Defense (Environmental Quality) was current, and
     to maintain documentation relative to USTs in centralized fties. DLA partially
     concurred with recommendations to comply with Defense Planning Guidance
     and to maintain UST documents at the UST location.

     Inspector General, DOD, Report No. W-017, “Upgrade of the Interim
     TANKMAN Syskqn November 7,19!Y7. The report states that it was not
     cost-effective to proceed with the upgrade of the interim Army Tank
     Management System. The Assistant Deputy Under Secretary of Defense
     (Environmental Quality) would have spent $98,000 for unnecessary upgrades to
     the Army Tank Management System. The report did not make
     recommendations because the Assistant Deputy Under Secretary agreed with the
     preliminary audit f&g     and the Defense Environmental Security Corporate
     Information Management office discontinued the upgrade and reprogrammed
     $98,000 to other projects while the audit was ongoing.

     Inspector General, DOD, Report No. 97-208, “Management of
     Underground Storage Tanks at Fort Bragg,” August 26,1!W7. The report
     concludes that Fort Bragg could not provide a verifuble inventory of USTs on
     the installation and did not have a plan or adequate funds to guarantee that at
     least 212 regulated USTs on Fort Bragg would comply with RCRA by
     December 22, 1998. The report recommends development of a complete
     verifiable inventory, determination of the status of UST compliance with
     RCRA, and development of a plan and provision of adequate funds to bring
     noncompliant USTs into compliance with RCRA. The report also recommends

                                        12
                                        Appendix B. Summary of Prior Coverage


    that steps to test controls over the management of USTs be included in Fort
    Bragg’s Environmental Natural Resources Division assessable unit. The Army
    concurred with all of the audit recommendations.


U.S. Army
    U.S. Army Audit Agency Audit Report: AA 98-134, Wanagement of
    Underground Storage Tanks,” 16 March 1998. The audit evaluated the
    Army status of compliance with Resource Conservation and Recovery Act,
    Subtitle I requirements at 24 Army activities. The report concludes that the
    Army made significant progress in comply&I with the Resource Conservation
    and Recovery Act, Subtitle I requirements for underground storage tanks. The
    report also concludes that the Army still may not be able to achieve full
    compliance by the 22 December 1998 deadline. The report recommends
    establishing a “Tiger Team” to add emphasis to the underground storage tank
    program and to assess the status of underground storage tank compliance with
    the Resource Conservation and Recovery Act, Subtitle I at all Army activities;
    requiring all Army activities to perform a one-time reconciliation of their
    underground storage tanks with records of the responsible State regulatory
    office; establishing more frequent interim reporting of compliance status of
    underground storage tanks through commanders at all levels; issuing guidance
    that requires plans to address compliance actions needed, timeframes for the
    actions, funds required for the compliance actions, and projects or contracts that
    will cover the compliance actions; scrubbing the FY 98 program budget to
    prioritize underground storage tanks projects; and obtaining definitive
    clarification of DOD and Environmental Protection Agency policies and legal
    positions on heating oil tanks and oil-water separators. The Army concurred
    with all of the audit recommendations.
    The U.S. Army Corps of Engineers, Huntsville Division, “Environmental
    Compliance Review Report,” September 1995. The report identifies 10 UST
    deficiencies at the Defense Supply Center Richmond. The report concludes that
    the Defense Supply Center Richmond was in the process of preparing an
    up-to-date UST inventory, but the inventory contained errors. The report also
    concludes that they improperly labeled and overfilled USTs. Officials at the
    Defense Supply Center Richmond have completed an accurate inventory and
    corrected the other deficiencies identified in the report.


U.S. Navy
    Naval Audit Service NAVADUDSVC P-7520.1, Audit Report “Management
    of Underground Storage Tanks,” 018-98, 12 January 1998. The report
    concludes that the Navy and Marine Corps were meeting the objectives of the
    underground storage tank program. Plans for bringing tanks into compliance
    with Resource Conservation and recovery Act requirements were adequate, with
    sufficient funding. The report also concludes that the Navy and Marine Corps
    reported inaccurate underground storage tank data to the Office of the Deputy

                                        13
Appendix B. Summary of Prior Coverage


      Under Secretary of Defense (Environmental Security). The report recommends
      that the Chief of Naval Operations (N45) and Co mmandant of the Marine Corps
      (LFL) take steps to report accurate underground storage tank data to the Deputy
      Under Secretary of Defense (Environmental Security). The report also
      recommends that the two commands explicitly define what represents an
      underground storage tank for reporting purposes. The Navy concurred with the
      audit recommendations.


U. S. Air Force
      Air Force Audit Agency Project 97052025, Report on Wnderground
      Storage Tank Environmental Compliance,” August 25,1!@7. The audit
      evaluated Air Force compliance with the Resource Conservation and Recovery
      Act. The report concludes that overall, Air Force complied with environmental
      requirements for USTs and should have all noncompliant tanks upgraded,
      replaced, or closed by December 1998. However, Air Force managers did not
      accurately report March 1996 UST information to the Office of the Secretary of
      Defense or always reconcile their UST inventories with state-generated
      inventories. The report contains no recommendations because the Inspector
      General, DOD, was addressing those issues in the overall audit of “DOD
      Management of Underground Storage Tanks.




                                         14
Appendix C. Other Matters of Interest
   Environmental regulatory agency officials in the 31 states contacted indicated
   that some states had stricter UST standards than those provided in the Federal
   RCRA standark Most state offkials were satisfied that DODwas complying
   with their RCRA guidelines including providing them with required declaration
   and notification documentation and using state-certified contractors.
   Stricter UST Standards. Six of the 31 states we contacted had UST standards
   that were stricter than the Federal RCRA standards. For example, the state of
   Delaware had adopted UST regulations that were more strict than the Federal
   standards. The state UST Compliance Program Manager stated that Delaware
   required UST owners and operators to:
         l maintain inventory control records for each UST and conduct a
   monthly reconciliation of those records;
          l   install secondary containment USTs in certain areas;

          l not use tank gauging except for used oil tanks with a capacity of
   2,000 gallons or less; and
          l have a leak detection and spill prevention system on all motor fuel
   tanks by December 31, 1990.
   None of the states we contacted had adopted broader standards than those
   provided for in RCRA.
   UST Jhcumentation. State environmental regulatory agency offhls in 29 of
   the 31 states contacted were satisfied that DODwas meeting their respective
   UST documentation requirements. Environmental offkials in these states were
   confident that DOD offkials were properly registering new USTs and notifying
   them of UST removals and upgrades. The state responses were consistent with
   the review of UST files made during the overall audit of “DODManagement of
   Underground Storage Tanks,” which concluded that DODinstallations were
   creating and maintaining RCRA-required declaration and notification
   documentation. The remaining two states were unable to determine whether
   DODwas complying with their documentation requirements. These states did
   not maintain suffkient UST data to determine whether DOD was providing
   RCRA-required documentation.




                                        15
Appendix C. Other Matters of interest


      Contractor Certification. Most state offhls were satisfied that DODwas
      complying with requirements to use state certified contractors. Twenty-two of
      the 3 1 states contacted had implemented UST contractor certification programs.
      According to environmental offkials in these states, UST contractors must he
      certified or licensed to maintain or handle USTs. In every instance, state
      environmental oflkials were confident that DODinstallations were using
      properly certified contractors to upgrade, replace, remove, and install USTs.




                                         16
Appendix D. State RCRA Implementation
Survey Results




   ‘States having stricter compliance standards generally required installa@n_of
   specific momtoring devices and techni ues or maintenance and reconcfllation of
   monthly inventory control records, an 8 installation of secondary contamment
   USTs in certain areas.

                                     17
Appendix E. Comparison of State and DOD
Inventories




             lstr8tfordEngincPlaat            0
    I   CT
             I
                                          I       I   0   I
                                                          I
                                                              0
                                                                  I




                                     18
            Appendix E. Comparison of State and DOD Inventories




SD   Elhvozth   Air Force Base        259      91       168




                                 19
Appendix E. Comparison of State and DOD Inventories




                        DGSC           Defense General Supply Center
                        FIX            Fleet Industrial Supply Center
                        MCACC          Marine Corps Air Ground Combat Center
                        MCAS           Marine Corps Air Station
                        MCCDC          Marine Corps Combat Development Command
                        MCLB           Marine Corps Logistics Base         ’
                        MCMWTC         Marine Corps Mountain Warfare Training Center
                        NAWC           Naval Air Warfare Center
                        NCBC           Naval Construction Battalion Center
                        NMCRC          Navy and Marine Corps Reserve Center
                        NSWC           Naval Surface Warfare Center




            l The 28 states reported that DOD has a total of 524 more USTs than
      DOD reported.
              l    Variances’ on a site-by-site basis show that of the 83 sites included in
      the audit:
                        - the states reported 1,011 more USTs than DOD reported at 28
              sites,
                      - DOD reported 487 more USTs than the states reported at 29
              sites, and
                      26 sites either had no differences or comparisons could not be
      made because data was unavailable.




       ’ The total number of variances is the sum of the state and DOD variances.

                                              20
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Environmental Security)
      Assistant Deputy Under Secretary of Defense (Environmental Quality)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)

 Department of the Army
Auditor General, Department of the &my

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Dudley Knox Library, Naval Postgraduate School

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                         21
Appendix F. Report Distribution




Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
  General Accounting Office
Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:
  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                          22
Audit Team Members
     This report was prepared by the Contract Management Directorate, Office of
     the Assistant Inspector General for Auditing, DOD.
     Paul J. Granetto
     Joseph P. Doyle
     Addie M. Beima
     Major David G. Young
     Towanda L. Stewart
     Charles R. Johnson
